In The
Supreme Court of the United States
No. 19-680
KENNETH SEALEY, in his individual capacity; and ROBERT E. PRICE,
Administrator C.T.A. of the Estate of Joel Garth Locklear, Sr.,
Petitioners,
v.
J. DUANE GILLIAM, Guardian of the Estate of Leon Brown; and
RAYMOND C. TARLTON, Guardian Ad Litem for Henry Lee McCollum,
Respondents.
AFFIDAVIT OF SERVICE
I, Jennifer Hendrick, of lawful age, being duly sworn, upon my oath state
that I did, on the 13th day of March, 2020, hand file forty copies of this Reply to
Response to Petition for Writ of Certiorari with the Clerk’s Office of the Supreme
Court of the United States and further sent three copies, via first-class mail,
postage prepaid, and one PDF copy, via email, of said Reply to Response to Petition
to:
Catherine E. Stetson
Kirti Datla
Matthew J. Higgins
E. Desmond Hogan
Elizabeth C. Lockwood
W. David Maxwell
Reedy C. Swanson
HOGAN LOVELLS US LLP
555 Thirteenth Street, N.W.
Washington, DC 20004
cate.stetson@hoganlovells.com
kirti.datla@hoganlovells.com
matthew.higgins@hoganlovells.com
desmond.hogan@hoganlovells.com
elizabeth.lockwood@hoganlovells.com
david.maxwell@hoganlovells.com
reedy.swanson@hoganlovells.com
Counsel for J. Duane Gilliam,
Guardian of the Estate of Leon Brown;
and Raymond C. Tarlton, Guardian
Ad Litem for Henry Lee McCollum

Scott D. MacLatchie
HALL BOOTH SMITH, P.C.
11215 North Community House Road
Suite 750
Charlotte, North Carolina 28277
smaclatchie@hallboothsmith.com
Counsel for Kenneth Snead
and Leroy Allen
Adam F. Peoples
HALL BOOTH SMITH, P.C.
72 Patton Avenue
Asheville, North Carolina 28801
apeoples@hallboothsmith.com
Counsel for Kenneth Snead
and Leroy Allen

